<html>
<title> - EQUITY IN TRANSPORTATION INFRASTRUCTURE: CONNECTING COMMUNITIES, REMOVING BARRIERS, AND REPAIRING NETWORKS ACROSS AMERICA</title>
<body><pre>[Senate Hearing 117-31]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 117-31
 
   EQUITY IN TRANSPORTATION INFRASTRUCTURE: CONNECTING COMMUNITIES, 
        REMOVING BARRIERS, AND REPAIRING NETWORKS ACROSS AMERICA

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON TRANSPORTATION 
                           AND INFRASTRUCTURE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                            ______                       


               U.S. GOVERNMENT PUBLISHING OFFICE 
45-020 PDF              WASHINGTON : 2021         
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
                              ----------                              

           Subcommittee on Transportation and Infrastructure

                 BENJAMIN L. CARDIN, Maryland, Chairman
BERNARD SANDERS, Vermont             KEVIN CRAMER, North Dakota, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
THOMAS R. CARPER, Delaware (ex       DAN SULLIVAN, Alaska
    officio)                         LINDSEY O. GRAHAM, South Carolina
                                     SHELLEY MOORE CAPITO, West 
                                         Virginia (ex officio)
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 11, 2021
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Cramer, Hon. Kevin, U.S. Senator from the State of North Dakota..     4

                               WITNESSES

Omishakin, Toks, Director, California Department of 
  Transportation.................................................     8
    Prepared statement...........................................    10
    Response to an additional question from Senator Kelly........    13
Davis, Veronica, Director, Transportation and Drainage 
  Operations, City of Houston....................................    16
    Prepared statement...........................................    18
    Responses to additional questions from:
    Senator Cardin...............................................    23
    Senator Kelly................................................    24
Panos, Bill, Director, North Dakota Department of Transportation.    25
    Prepared statement...........................................    27
    Response to an additional question from Senator Kelly........    31
Polzin, Steven, Ph.D., Senior Consultant, Self-Employed..........    33
    Prepared statement...........................................    36

                          ADDITIONAL MATERIAL

Letter to Senator Cardin et al. from the Alternative Fuels and 
  Chemicals Coalition, May 25, 2021..............................    56


   EQUITY IN TRANSPORTATION INFRASTRUCTURE: CONNECTING COMMUNITIES, 
        REMOVING BARRIERS, AND REPAIRING NETWORKS ACROSS AMERICA

                              ----------                              


                         TUESDAY, MAY 11, 2021

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 216, Hart Senate Office Building, Hon. Benjamin L. Cardin 
(Chairman of the Subcommittee) presiding.
    Present: Senators Cardin, Cramer, Carper, Duckworth, Kelly, 
Padilla, Lummis, Boozman, and Sullivan.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. This hearing of the Transportation and 
Infrastructure Subcommittee of the Environment and Public Works 
Committee will come to order.
    Let me acknowledge that this is our first hearing for the 
Subcommittee in this Congress, and I want to thank specifically 
Senator Carper and Senator Capito, our Chair and Ranking Member 
of the full Committee, for their support of our Subcommittee 
and the work that we are doing and allowing us to conduct this 
hearing today.
    I want to thank Senator Cramer and his staff for helping us 
put together today's hearing.
    I look forward to working with Senator Cramer and other 
members of the Subcommittee as we take on the important work of 
this Congress in regard to infrastructure. We will have a 
unique opportunity to act on a 5 or 6 year surface 
transportation reauthorization bill. That allows us to take up 
not only the funding level, but many of the issues concerning 
infrastructure in America.
    We can talk about many issues from multimodal capacities to 
adequate maintenance to adaptation and climate issues. There 
are certainly a lot of issues that need to be talked about as 
we look at the reauthorization bill.
    Today's hearing will deal with Equity in Transportation 
Infrastructure: Connecting Communities, Removing Barriers, and 
Repairing Networks Across America. This is obviously a very 
important subject, and one which I welcome today's witnesses to 
help us in our discussion.
    The building of our national highway system from the 1950s 
was, in many ways, a great national achievement: A major public 
investment in our infrastructure that transformed our country 
and that we continue to rely on today. But for far too many 
communities, especially communities of color, ethnic 
communities, and urban centers, the construction of our 
highways has had traumatic and destructive impacts. Rather than 
connecting their communities and expanding their opportunities, 
highway construction brought demolition, displacement, 
isolation, and exclusion.
    The siting of highways was sometimes done under the banner 
of seemingly noble goals of urban renewal and removing blight, 
but sometimes also with overtly racist intentions of cutting 
off and segregating. In reality, it destroyed thriving 
communities, homes, and businesses and tore apart social 
networks. These highway projects often made it more difficult 
for people in these communities to reestablish stable 
livelihoods, achieve personal and economic progress, and build 
wealth in the decades that followed.
    The city of Baltimore is intimately familiar with this 
painful history of highway planning and highway building. It 
has experienced it firsthand. It lives with the legacy today. 
African Americans in Baltimore were disproportionately 
affected. Between 1951 and 1964, about 90 percent of all 
housing displacements occurred in Baltimore Black 
neighborhoods.
    There were many plans for numerous highways to be built in 
Baltimore City. The city would have lost some of its 
neighborhoods that are now cherished and an integral part of 
our city. The Inner Harbor would have been devastated by a 
giant highway interchange.
    All of this would have happened to a much greater extent if 
it was not for a coalition of advocates who raised their voices 
in opposition to these plans. Among those voices was my friend 
and former Senate colleague, Barbara Mikulski, who is known to 
have entered politics through the fight over highways through 
her involvement in the Movement Against Destruction. These 
advocates and community leaders were able to save 28,000 
housing units from demolition, mostly in minority and ethnic 
communities, which is Baltimore's strength, but they were not 
able to save all neighborhoods from the bulldozers.
    Part of the highway plan for Baltimore was to have an east-
west corridor connecting I-70 coming in from the west to 
downtown Baltimore. It was meant to facilitate commuting by car 
from the suburbs, and in the eyes of some, like Robert Moses, 
to clear out what they saw as slums.
    This east-west highway was never completed, but it still 
did damage. African Americans were disproportionately impacted 
with 3,000 residents, mostly Black, uprooted in the late 1960s 
to make way for this highway that was never completed. Today, 
this highway to nowhere is a barrier and an impediment, a 
source of pollution, not convenience. Occupying a 30 foot 
trench, this massive roadway in the Franklin-Mulberry Corridor 
in West Baltimore separates and isolates neighborhoods such as 
Harlem Park from other parts of the city.
    This is the legacy of infrastructure that is felt in cities 
across the country and that we must now reckon with today. By 
removing barriers that are no longer useful, we can help 
reconnect communities to opportunities, improve their health 
and safety, and make daily life better.
    I am proud to join Senator Carper, our Chair, in supporting 
the Reconnecting Communities Act, a bill that would establish a 
Federal program to support the planning and implementation of 
projects to remove infrastructure barriers, such as the 
Mulberry-Franklin Corridor in Baltimore City, barriers that 
have clearly outlived their usefulness, but remain a burden to 
our neighborhoods.
    Let me quote from my former colleague and dear friend, the 
late Congressman John Lewis, when he told us, ``The legacy of 
Jim Crow transportation is still with us. Even today, some of 
our transportation policies and practices destroy stable 
neighborhoods, isolate and segregate our citizens in 
deteriorating neighborhoods, and fail to provide access to jobs 
and economic growth centers.''
    A report in the New York Times last year highlighted how 
the urban heat island effect disproportionately impacts 
communities that were redlined. These communities can be 5 to 
12 degrees hotter on summer days than areas in the same city 
that enjoy more favorable housing policies. The article 
described a mother with two young kids trekking more than a 
mile on foot just to get to a park with some shade.
    Our past highway investments have left too many Americans 
in low income communities to navigate acres of asphalt and 
cross lanes of roads that serve only fast moving vehicle 
traffic just to take care of their daily needs: To buy 
groceries, to get their kids to childcare, or to connect to 
transit to get to work.
    For too many Americans, transportation infrastructure has 
created stressful, unsafe, and unhealthy conditions, and that 
is why we must build back better.
    We also see inequity in the data that suggests that 
communities of color disproportionately bear the burden of 
pollution and health and safety risks from transportation. In 
the most recent Dangerous by Design report, Smart Growth 
America found that between 2010 and 2019, Black Americans were 
struck and killed by drivers at an 82 percent higher rate than 
White, non-Hispanic Americans.
    We know that investing in transit is a key part of 
addressing inequity in transportation, and in Maryland, we have 
a lot of work to do to expand and upgrade our transit system. 
But our roads and streets and related safety policies also play 
a critical role. Because this Committee has specific 
jurisdiction over our highway program, our focus today is on 
how we can improve this area of our transportation policy to 
address equity.
    I am proud to author the Transportation Alternatives 
Program, a critical component of our surface transportation 
programs. This program ensures that a segment of our Federal 
transportation funding supports the priorities of local 
communities for carrying out projects such as bike lanes, 
pedestrian infrastructure, and safety improvements.
    TAP funds were used in Baltimore in regard to the Leakin 
pathway that reconnects communities that were not connected 
together so that people can really enjoy their neighborhoods.
    We need to do more to build in the Transportation 
Alternatives Program and give more opportunities for cities and 
local communities to guide resources that they need.
    I applaud President Biden for making transportation equity 
a centerpiece of the American Jobs Plan for investing in our 
Nation's infrastructure. This plan calls for us to address our 
legacy of past infrastructure projects, and it calls for 40 
percent of the benefits of our climate and clean infrastructure 
investments to go to disadvantaged communities.
    In addition, he signed, on January 20th, an Executive Order 
on Advancing Racial Equality and Support for Underserved 
Communities through the Federal Government. This Executive 
Order calls on Federal Government agencies to assess whether 
underserved communities and their members face systemic 
barriers to accessing benefits and opportunities available 
pursuant to those policies and program. This is a step that is 
critical for our transportation.
    Poor transportation infrastructure has limited the 
opportunities for disadvantaged communities, creating and 
perpetuating inequity, contributing to poverty, poor health, 
low employment, and poor and insufficient housing conditions. 
In contrast, good transportation infrastructure provides an 
opportunity to enhance the lives of many and to help sustain 
their communities. That should be our goal as we look at the 
transportation reauthorization act.
    With that, I recognize my distinguished Ranking Member, 
Senator Cramer.

            OPENING STATEMENT OF HON. KEVIN CRAMER, 
          U.S. SENATOR FROM THE STATE OF NORTH DAKOTA

    Senator Cramer. Thank you, Chairman Cardin. Thanks for 
holding this important hearing.
    I was thinking, as you started your comments, that if 
Carper, Capito, Cardin, and Cramer can't solve this problem, 
nobody in the alphabet can.
    [Laughter.]
    Senator Cramer. One of the things I have appreciated most 
about serving on the Environment and Public Works Committee is 
the bipartisan consensus we strive to achieve and often do. We 
often do. It is not very sexy, but we often strive for and 
achieve consensus.
    On a personal note, I have especially enjoyed working with 
you on legislation to support things like clean nuclear energy, 
and refining our PPP forgiveness process to better serve both 
lenders and borrowers. I wanted to serve as the Ranking Member 
on this Subcommittee to further the cooperation that has 
historically driven infrastructure policy, really, over the 
years and the decades.
    It is my hope that we can continue the trend by crafting a 
reauthorization bill that meets the priorities of North 
Dakotans and Marylanders alike. Despite our geographic and 
political differences, all of our constituents understand the 
importance of roads, bridges, and waterways and the role they 
play in fostering economic development and interstate commerce.
    No doubt, many of North Dakota's agricultural products make 
it into Annapolis restaurants, or they are shipped out of the 
Port of Baltimore, and that benefits both States and everyone 
in between. My point being, of course, if we keep the main 
thing the main thing, I believe we have a road to success on 
this reauthorization.
    That brings us to today's hearing: Equity in Transportation 
Infrastructure.
    Mr. Chairman, one of the aspects I appreciate most about 
EPW is the statutes under our jurisdiction reinforce 
federalism. Highway policies and projects are coordinated 
between the State and Federal Government rather than dictated 
from the Federal Government to the States.
    In fact, Mr. Chairman, I appreciated your comments during 
our last hearing on the solvency of the Highway Trust Fund, 
when you had an exchange with a witness regarding how a VMT 
would fit within a federalist model. It was a great point on 
your part, and it highlights how we are all very cognizant of 
the States' role in this equation.
    Typically, infrastructure projects start from the 
grassroots and work their way up to the State and then the 
Federal level. That is why this Committee, along with AASHTO 
and State Department of Transportation officials, which I am 
glad to see we have two here today, have consistently supported 
distributing Federal dollars via formula so every State can be 
responsive to both interstate commerce needs within their 
borders and community connectivity issues.
    My point being, there are multiple examples of poor 
planning decisions that have led to adverse consequences for 
specific communities. None of us deny that, and I think we all 
agree they should be rectified. I believe it should be done at 
the local and State level, where decisionmakers are closest to 
the people and able to make a balanced decision. If a new 
route, expansion, or removal is necessary, that should be done 
through the State planning process with the formula dollars 
allotted to them, not a new discretionary grant that pulls from 
the limited pool of funding within the Highway Trust Fund.
    With that being said, Mr. Chairman, I have always advocated 
for going big in this infrastructure package. Last Congress, we 
all supported the passage of the largest highway bill in 
history, and I have no problem breaking that record again this 
time around.
    However, the current proposal to deal with the issue at 
hand, the Reconnecting Communities Act introduced by Chairman 
Carper, would take $15 billion out of the Highway Trust Fund to 
establish a new discretionary grant. I don't object to $15 
billion being added to an infrastructure package, but how it is 
dispersed is key.
    As you all know, the current formula versus discretionary 
split is roughly 90 percent formula to 10 percent 
discretionary. That is the policy today, and retaining it is 
one of the top requests from AASHTO and many members of this 
Committee, including me. If we were to pass the Reconnecting 
Communities Act while following the current 90 to 10 
distribution, it would require $135 billion be added to the 
formula side of the ledger.
    Similarly, rather than creating a new discretionary grant, 
if we were to distribute the proposed $15 billion via 
traditional formula, we would not be picking winners and losers 
among States. Rather, this would allow each of them the 
flexibility to be responsive to their communities.
    If we went this route, it equates to roughly $95 million to 
North Dakota and millions, if not billions, in the case of 
California, more for every other State in the union.
    It goes without saying, but Federal highways exist for 
interstate commerce. Planning decisions to reroute or remove 
portions of the system should not be made lightly and should 
take into account every interested party and the potential 
repercussions or even unintended consequences of those actions.
    Again, I would reiterate, the State is best equipped to 
manage these requests, not a Federal bureaucrat parsing through 
grant applications, determining which applicant meets the 
political objectives of whoever is in charge.
    Last, Mr. Chairman, the most prominent examples I have seen 
are in urban settings, as you describe. But if you put the 
issue of equity in a rural context, those communities are not 
struggling with obtrusive infrastructure that gets in the way; 
rather, they are dealing with a lack of infrastructure 
connectivity.
    H.R. 2 and the Reconnecting Communities Act both limit new 
capacity or new miles being added to the system, effectively 
shutting out rural and tribal communities who need new access, 
not less.
    Thank you again, Mr. Chairman, for holding this hearing, 
and I look forward to discussing these issues and listening to 
the witnesses before us.
    Senator Cardin. Senator Cramer, thank you for those 
comments, particularly our ability to find a way to work 
together, which has been the history of the Environment and 
Public Works Committee. I agree with you completely.
    Just as a way of background, I served 20 years in the State 
legislature with 8 years as speaker. I served on President 
Reagan's Federalism Task Force, so I share your strong belief 
that decisions made at the local level on transportation are 
certainly the best decisions. We do have interstate and 
national priorities, but we very much have to protect the 
ability of local communities to make those decisions.
    So thank you very much for your comments, and I look 
forward to working with you.
    All four of our witnesses today are very distinguished. 
They are appearing before this Committee virtually; they are 
not here in person, so we will try to use the technology the 
best that we possibly can.
    Most of the members that are going to be participating in 
this Committee will also be doing it virtually, so I hope that 
we all can bear with the technology.
    Let me introduce two of our witnesses, then I will 
recognize Senator Cramer to introduce the two other witnesses 
that we have on the panel today.
    Toks Omishakin is the director of the California Department 
of Transportation. We have a State director, which I think can 
give us some very important information, but the director also 
has on his resume that he is a graduate from the University of 
Maryland College Park, which, to me, shows good sense on his 
undergraduate degree. He is also a founder of a planning 
consulting firm in the DC area, so he knows the DC area very, 
very well.
    Veronica Davis is the Director of Transportation and 
Drainage Operations in the city of Houston. We welcome her to 
the Committee to give us the perspective from Houston. She also 
served the Nashville transportation system, so she has broad 
experience in local government and understands the multimodal 
challenges that we have.
    Now, let me recognize Senator Cramer to introduce the last 
two witnesses, and then we will turn it over to Director 
Omishakin.
    Senator Cramer. Thank you, Mr. Chairman.
    Dr. Steven Polzin is with us today, and he completed his 
appointment as a senior advisor for research and technology in 
the Office of the Assistant Secretary for Research and 
Technology at the Department of Transportation in early 2021. 
Previous to that, he served as Director of Mobility Policy 
Research at the Center for Urban Transportation Research, 
University of South Florida.
    Prior positions include working for transit agencies in 
Chicago, Cleveland, and Dallas and has experience in front line 
agencies involved in carrying out and complementing 
transportation services. He has served on the board of 
directors for Hillsborough Area Regional Transit Authority and 
on the Hillsborough County Metropolitan Planning Organization 
Board. His professional interests include transportation 
policy, travel behavior and travel demand, transportation 
system performance, travel data analysis, transportation 
decisionmaking, and public transportation.
    In July of this year, Dr. Polzin will assume the position 
of research professor TOMNET University Transportation Center 
School of Sustainable Engineering in the Built Environment, 
Arizona State University in Tempe. Dr. Polzin is a civil 
engineer with a B.S.E. from the University of Wisconsin Madison 
and Masters and Ph.D. degrees in civil engineering with a focus 
on transportation from Northwestern University, and I look 
forward to learning from his Federal and academic experience.
    Bill Panos is my friend and the North Dakota Director of 
Transportation. He formerly served in the same role for 
Wyoming, so probably Senator Lummis could introduce him even 
better than me. I would also note that while Bill is with the 
North Dakota Department of Transportation, his testimony has 
been agreed to and is on behalf of five rural States, including 
North Dakota, South Dakota, Wyoming, Montana, and Idaho.
    So, welcome, Bill, and thanks to you for sharing your 
expertise with the Committee today.
    Since coming to North Dakota, Bill has been a breath of 
fresh air, providing excellent advice and help to me and to my 
team. I have had the pleasure of bringing multiple North Dakota 
witnesses to EPW and have been looking forward to getting 
Bill's expertise before EPW, and look forward to his expertise.
    Senator Cardin. Thank you for those introductions.
    For all four of our witnesses, your entire statements will 
be made part of our record, so they are included in the record. 
We ask that you summarize your testimony in approximately 5 
minutes, leaving time for questions by members of the 
Committee.
    We will start with Director Omishakin.

            STATEMENT OF TOKS OMISHAKIN, DIRECTOR, 
            CALIFORNIA DEPARTMENT OF TRANSPORTATION

    Mr. Omishakin. Good morning Chairman Cardin, Ranking Member 
Cramer, and members of the Committee. I am Toks Omishakin, 
Director of the California Department of Transportation, also 
known as Caltrans, the largest State Department of 
Transportation in the Nation.
    I am honored to be with you remotely and part of today's 
important conversation.
    Equity and transportation have long been intertwined. 
Transportation is a critical and deciding issue, as it 
determines whether or not people have access to work and to 
essential goods and services.
    Transportation policies and spending programs do not 
benefit all populations equally. Historically, transportation 
policies have also prioritized highway development, some of 
which were built by dividing minority and low income 
populations. These and other transportation policies have had 
inequitable outcomes.
    This approach has also been enshrined in our funding 
decisions, in which a focus of transportation dollars has been 
on expanding roads. This needs to shift in a way that 
transportation is truly built back better for all.
    Low income families and people of color, people who are 
less likely than the average Californian to have access to a 
personal automobile, have been left behind by investments in 
infrastructure, limiting access to jobs and economic 
opportunities, social and educational opportunities, health 
care services, places of worship, and other important 
destinations such as even the grocery store.
    Further, the burdens of poor road conditions are 
disproportionately shouldered by communities marginalized by 
transportation infrastructure. Overall, minority and 
underserved communities experience fewer benefits and take on a 
greater share of negative impacts associated with our 
transportation systems.
    Because of this, transportation equity is not just a 
transportation issue. To improve equity across the board, we 
must address transportation in an equitable fashion. To do 
that, we need to listen to communities affected by inequity and 
implement change accordingly by altering the way we evaluate 
and make investments in transportation, but we can't fix what 
we won't face.
    As a starting point for conversations underway at Caltrans, 
our department, we have expressed our commitment to achieving 
transportation equity, as articulated in our Statement of 
Commitment. That statement says, ``We will achieve equity when 
everyone has access to what they need to thrive, starting with 
our most vulnerable, no matter their race, socioeconomic 
status, identity, where they live, or how they travel. To 
create a brighter future for all Californians, Caltrans will 
implement concrete actions as outlined in our Race and Equity 
Action Plan, regularly update our Action Plan, and establish 
clear metrics for accountability in order to achieve our 
commitments.''
    At Caltrans, we recognize our leadership role and unique 
responsibility in a State of more than 39 million people that 
supports the fifth largest economy in the world. We strive to 
eliminate barriers and provide more equitable transportation 
for all in California. This understanding is the foundation for 
intentional decisionmaking that addresses past harms and 
endeavors to prevent future harms from our actions.
    We must work in collaboration with all of our stakeholders 
toward developing effective solutions, such as: No. 1, 
expanding public transportation to meet the needs of a diverse 
and aging population, including quality transit service in 
rural communities.
    No. 2, developing and investing in passenger rail and 
transit projects that support inclusive high road job 
development opportunities in the trades, and specifically the 
clean transportation sector to address the disproportionate 
effects of pollution on minority and underserved communities.
    No. 3, invest in safer multimodal and active transportation 
facilities on community highways, trails, and streets, 
enhancing maintenance and operations investments on all 
highways and prioritizing underserved rural communities, 
including tribal governments, and finally, literally bridging 
the divides that highways have created.
    Paramount to an equitable transportation network is 
achieving structural integrity, not just in a physical sense, 
but metaphorically, within all the transportation departments' 
identities.
    I would like to end with an inspirational quote from Nelson 
Mandela: ``Vision without action is just a dream; action 
without a vision just passes the time, and vision with action 
can change the world.'' We can and will change this world 
together.
    Thank you very much for having me today. I look forward to 
your questions and hearing from my fellow witnesses.
    Thank you very much.
    [The prepared statement of Mr. Omishakin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    Senator Cardin. Director, thank you very much for your 
testimony.
    We will now hear from Director Davis.

   STATEMENT OF VERONICA DAVIS, DIRECTOR, TRANSPORTATION AND 
              DRAINAGE OPERATIONS, CITY OF HOUSTON

    Ms. Davis. Good morning, Chair Cardin, Ranking Member 
Cramer, and members of the Subcommittee on Transportation and 
Infrastructure. On behalf of Mayor Silvester Turner, Houston 
Public Works Director Carol Haddock, and the 2.3 million 
residents of Houston, I really want to thank you for the 
opportunity to testify today.
    My name is Veronica O. Davis, and I am the Director of 
Transportation and Drainage Operations within the city of 
Houston's Public Works Department. I have oversight of over 
16,000 lane miles, 3,500 storm miles of storm sewer, 3,600 
miles of ditches, and 33 stormwater detention basins.
    I am here in my official capacity for the city of Houston, 
but I also serve on the board of America Walks, and I am the 
Houston representative to the National Association of City 
Transportation Officials. I will cite both in my testimony 
today.
    We are having this conversation because the end result of 
decades of inequitable decisionmaking are negative public 
health impacts, such as asthma, obesity, serious injury, and 
fatalities that disproportionately affect low income 
communities and communities with large populations of Black, 
Hispanic, and Indigenous people. For the purposes of this 
testimony, I will focus on serious injuries and fatalities.
    As cited earlier, in Dangerous by Design, which examines 
pedestrian fatalities across the Nation, it recognizes where 
pedestrians are disproportionately being hit, and in this 
Committee that represents States that are at the top 20 most 
dangerous for pedestrians: No. 2, Alabama; 4, Mississippi; 7, 
Arizona; 8, South Carolina; 14, Oklahoma; 15, Arkansas; 16, 
California; 18, Maryland; and 19, Michigan. Texas is No. 10, 
and unfortunately, the Houston region ranks 18th most dangerous 
for pedestrians across the Nation.
    What does this have to do with equity? When you look at the 
data, as cited earlier, it disproportionately affects Black 
Americans and American Indians. In addition, when holding 
constant for population, we are seeing that the rates are 
comparable in rural areas.
    Equity is about everyone getting what they need. However, 
for my fellow transportation officials, we all know too well 
that the needs of our cities exceed the money, staff capacity, 
and time resources available to us.
    If you examine any major city, the findings will be almost 
identical. At the root is race based segregation compounded 
with decisions by planners, my fellow engineers, and elected 
officials to put highways and wide roads through minority and 
low income communities.
    Houston, like many other cities, has the same story. In 
2017, Mayor Sylvester Turner created the Complete Communities 
Initiative to redirect current city and Federal resources to 
communities that are under-resourced. The Complete Communities 
Initiative was established to be collaborative, impactful, and 
transformative.
    The present day Federal surface transportation policy 
continues to incentivize construction of high speed, 
autocentric roads at the expense of other modes. As a member of 
NACTO, I have worked with my colleagues to develop a list of 
priorities, speaking to four today. The Reconnect Communities 
Act: Like many cities, Houston has numerous infrastructure 
barriers.
    In addition to highways built in the 1960s and 1970s, 
Houston has 13 freight lines that merge near our downtown, two 
major freight rail yards on the north side of downtown, and 
more than 700 at grade crossings. All pose safety risks to 
people walking and biking and require retrofit, and we ask for 
consideration when looking at the Reconnect Communities Act.
    Empowering cities to realize their vision: We with NACTO 
have been advocating for Congress for direct funding to cities 
to give us control over State administrated projects within our 
borders.
    Create a pedestrian priority set aside within the Surface 
Transportation Block Grant: The set aside should be explicitly 
for sidewalks, curb ramps, crosswalks, Americans with 
Disabilities Act transition plans, and roadway/street 
narrowing.
    Last, incorporating funding for resiliency: Socially 
vulnerable residents within Houston face greater challenges 
recovering from extreme events. Incorporating resiliency can 
increase our project costs as much as 30 percent.
    As a keeper of the roadways in Houston, I have a 
responsibility to the public. Mayor Turner has called for a 
paradigm shift. This shift includes taking affirmative steps to 
right historical injustices by designing a multimodal 
transportation network that is inclusive of all people and 
needs. I recognize every decision today will impact the future 
generations.
    Thank you for your time and attention to this important 
topic. I look forward to hearing from my fellow witnesses, and 
I look forward to answering any questions that you all may 
have.
    Thank you.
    [The prepared statement of Ms. Davis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Cardin. Thank you, Director, for your testimony. We 
really appreciate it.
    We will now go to Director Panos.

              STATEMENT OF BILL PANOS, DIRECTOR, 
           NORTH DAKOTA DEPARTMENT OF TRANSPORTATION

    Mr. Panos. Chairman Cardin, Ranking Member Cramer, and 
members of the Subcommittee, I am Bill Panos, CEO of the North 
Dakota Department of Transportation.
    At the outset, I want to express our department's 
appreciation for Senator Cramer's work on transportation 
issues.
    Let me also note that the transportation departments of 
Idaho, Montana, South Dakota, and Wyoming have authorized me to 
advise that they support my written testimony.
    Mr. Chairman, you are among the cosponsors of Senate 1202, 
Chairman Carper's Reconnecting Communities Act. That 
legislation underscores that sometimes, a transportation 
investment does not turn out as well as was hoped when it was 
conceived and built. More specifically, a number of 
disadvantaged communities in large urban areas have found 
themselves divided by limited access highways.
    So, today, we discuss what should be done going forward to 
address situations of disadvantaged communities that want 
better connections or to be reconnected.
    I will begin with a rural setting. Upgrading a narrow, two 
lane road that connects to a tribal nation can make a 
difference. A modern, two lane road with standard width lanes 
and shoulders and a third lane at appropriate points for turns 
or passing is much safer. It also shortens the trip to a job, a 
school, or a health care provider. Making the same kind of 
improvement to another two lane road can help a farmer move 
crops to a grain elevator more efficiently, which is important, 
as farm operating margins are so thin.
    Rural roads are also used by buses, which are another tool 
to improve connections for disadvantaged individuals and 
families.
    In short, improved connections are needed by rural 
communities, including disadvantaged ones. State DOTs like mine 
help address these issues with highway and transit formula 
funding. Strong formula funding will enable the State to 
continue to address these situations and help people.
    Legislation should also make clear, if clarification is 
needed, that formula funds can be used for projects to address 
the divided urban community situations that are front and 
center at today's hearing, so eligibility and strong formula 
funding will enhance the ability of States to address these 
urban connectivity issues quickly.
    Regional issues should also be considered. If an interstate 
system highway through a city is proposed to be effectively 
severed, will there be consideration of whether that leads to 
backups on the city's beltway or bypass highway? Will that mean 
increased air pollution elsewhere?
    Consideration of those factors could lead to win-win 
solutions. For example, a decision could be made to cap rather 
than remove an interstate system segment that would enable 
walkable and drivable community connections above the highway 
without a break in the interstate system.
    Before closing, I will comment on funding. I have already 
mentioned that strong formula funding and flexible program 
eligibilities enable a State to connect or reconnect 
disadvantaged communities in rural and urban areas. But formula 
funds do more than that: They help improve roads, bridges, bike 
paths, sidewalks. They pay for safety investments. They could 
also be transferred to transit projects. Formula funds are 
delivered as projects quickly.
    Discretionary programs, however, can't be deployed until 
after program rules are established and applications sought, 
applications prepared and filed, applications reviewed by 
USDOT, and a decision made on awards, and a grant contract 
finalized.
    As formula funds are so beneficial, it is not surprising 
that State DOTs have broadly advocated that 90 percent or more 
of highway program funds be distributed by formula. Ninety 
percent itself is down from an estimated 92 percent of FAST Act 
Highway Funds being distributed by formula, so it is noteworthy 
that Senate 1202 would provide $15 billion over a 5 year frame 
non-formula program to fund reconnection projects.
    Fifteen billion dollars in discretionary funds is so large 
that, to maintain a highway program distribution with 90 
percent formula funds, one would have to pair these 
discretionary funds with an additional $135 billion in formula 
funds. So, the overall funding approach should not de-emphasize 
formula funding.
    Last, but importantly, I have described in my written 
testimony we support a range of actions that can help advance 
equity for the disadvantaged and disadvantaged communities.
    That concludes my statement. I will be pleased to respond 
to questions at the appropriate time.
    Thank you.
    [The prepared statement of Mr. Panos follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Senator Cardin. Director, thank you very much for your 
testimony.
    We will now go to Dr. Polzin.

              STATEMENT OF STEVEN POLZIN, PH.D., 
                SENIOR CONSULTANT, SELF-EMPLOYED

    Mr. Polzin. Thank you. I very much appreciate the 
opportunity to share my thoughts on this important topic with 
you today.
    Equity in transportation has been an issue for decades, and 
it is certainly getting increasing attention now. The COVID 
situation, for example, has increased the sensitivity to 
disadvantaged communities and groups.
    In my written testimony, I use the comparison of the 
fantasy of teleportation as a point of contrast to actual 
modes, where there is no such thing as perfect equity. The 
incidents and consequences of modes differ across geography and 
market segments.
    Historically, we have looked at equity with respect to a 
number of characteristics. Certainly, access to modes and 
accessibility via those modes.
    We have looked at the incidents of consequences of those 
modes based on the services and facilities, and we have looked 
at the equity issues as it relates to the collection and 
distribution of funds. Common topics that arise in those 
discussions are things like, are heavy trucks paying their fair 
share of roadway costs, are rural or urban areas getting the 
appropriate attention in the formulas, et cetera.
    More recently, equity sensitivities have been broadened 
from that. We are looking for examples of things like whether 
or not ride hailing and e-scooter services are being 
distributed equitably. We now have the capability to look at 
things like access to health care and fresh foods as influenced 
by our transportation system.
    We have discovered, certainly from the academic 
perspective, that defining and measuring equity is extremely 
difficult. Some people think equity means that the government 
should spend the same amount on transit as roadways, while 
others think that equity means folks that contribute user fees 
should have those user fees spent on projects that benefit 
them. Some people think it is inequitable to burden the future 
generations with debt for spending on operations for services 
today versus leaving those folks with an asset that pays 
dividends in the future.
    Beyond defining equity, we are seeking to understand the 
extent to which efforts to improve equity can be leveraged in 
terms of improving overall societal inequities, and that is not 
a trivial challenge at all in terms of understanding the merits 
and value of investing in this type of solution to improve 
equity.
    Equity is not easily accomplished and is challenging.
    Another key point that I pointed out in my written 
testimony is that geography is a critical factor as it related 
to equity, and it is important to recognize that urban areas 
with roadway systems typically have a hub and spoke type of 
configuration, and the geometry of that means that the 
transportation network is more dense and typically higher 
capacity as you approach the core, or the hub, of that urban 
area.
    Accordingly, there are more impacts as well as more 
accessibility for those areas in general because of the 
presence of those facilities, so populations that tend to 
congregate in the urban, inner urban areas are 
disproportionately impacted by the consequence of those 
systems, but also have the benefit of greater accessibility, 
both on the roadway side and on the public transportation side.
    When we think about, and when I think about transportation 
equity, both as a researcher and a practitioner, a number of 
issues are important to consider as we deliberate how to 
address improving transportation equity.
    First of all, I think it is critical to realize that the 
transportation community, the full community, from planning to 
decisionmaking, have become much more sensitive to these 
issues.
    In fact, our tactics and strategies are much more robust 
than was the case at the beginning of the interstate era. Even 
simple things like our outreach and planning processes are more 
engaging than historically was the case. Simple things like 
virtual communications that we have excelled at during COVID, 
people are realizing that this is a nice venue to have more 
inclusiveness in our planning processes, for example.
    But it goes beyond that. We have done more with engineering 
and planning. We are using our facilities more creatively; we 
are mitigating the size of the footprints; we are ensuring 
better connectivity for people, and even for wildlife across 
facilities. We are using excess parcels to make contribution to 
the community, et cetera.
    It is also important, and it has come up in some of the 
comments earlier, that the interstate system was really 
intended as a national system to provide connectivity. It was 
created with the intention of addressing everything from 
military preparedness, economic competitiveness, mitigation in 
catastrophes, et cetera, and its constituents and stakeholders 
reflect that full breadth of intended uses.
    So anything that is done that influences that system going 
forward really needs to have a stakeholder set that reflects 
that full breadth of audience in those decisionmaking things. 
While it certainly impacts local communities, the benefits go 
well beyond that.
    It is important to realize that urban communities weren't 
the only ones negatively impacted by the freeway. There are 
dozens of small towns and communities across the country that 
were bypassed by freeways that had dramatic impacts on their 
economy because of that, so when we think about mitigating 
consequences, we need to recognize that those consequences 
didn't just occur in urban communities.
    When we think about economics and spending on 
transportation, it is important to realize that oftentimes in 
discussions, we talk about the multiplier benefits that we are 
going to see from transportation investment.
    Historically, the economists have calculated those benefits 
based on the enhanced mobility that those investments provide. 
We need to be careful as we expand the purpose of those 
investments to make sure that we are, in fact, getting benefits 
from those investments that merit their expenditure going 
forward. We need to be careful that the higher costs don't 
mitigate the return on that investment.
    We should also be careful in presuming how social and 
commercial interactions will occur, should we fix or change 
some of the urban infrastructure conditions. Today's social 
networks and commercial networks are very different from those 
that existed in the 1950s. A lot of the socialization and 
economic activity aren't place based. They are based on social 
connections and interactions, media connections, they are 
formed around jobs and schools and workplaces, much more so 
than social places or local residential places. So we need to 
be careful about presuming that we are going to return things 
to a 1960 concept of what a neighborhood and interactions in 
the community are.
    Senator Cardin. Dr. Polzin, I ask if you could summarize 
your statement.
    Mr. Polzin. I can.
    Looking ahead, I think it is important that all the local, 
State, and regional perspectives are brought to bear when we 
make these decisions. The stakeholders for these investments 
oftentimes, particularly for interstate-centric investments, go 
well beyond the local area, so it is important that these folks 
all have a place at the table as we make those decisions.
    A number of communities have and are in the process of 
exploring some of these issues as we speak, and they have 
developed pretty big capabilities to do that. We can go back 
and look at things like the Big Dig in Boston, for example.
    Communities have found ways to mitigate consequences and 
work around these things through existing processes, and I 
think there are opportunities, with adequate resources, to 
continue to do that in the future, leveraging the capabilities 
and the processes that have been developed at the local and 
State levels.
    Thank you.
    [The prepared statement of Mr. Polzin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Cardin. Thank you, Dr. Polzin.
    All of you have raised issues that I know we want to get 
into a discussion during the questioning by members of the 
Senate.
    I am going to yield my time to Senator Padilla, whose 
director is here from California.
    Senator Padilla.
    Senator Padilla. Thank you, Senator Cardin, and good 
morning, everybody.
    Before I get to my question, I wanted to acknowledge an 
important topic that this Committee has discussed and continued 
to deliberate.
    We know that renewing our infrastructure fosters economic 
growth. It connects communities and improves quality of life 
for all Americans, but all too often, in the past, policymakers 
have ignored the needs of the people most directly impacted by 
these projects and have failed to serve vulnerable communities.
    Even worse, infrastructure has, at times, contributed to 
the destruction of communities, especially low income 
neighborhoods and communities of color. Ensuring equitable 
investment in all communities is an essential aspect of 
building back better and addressing our Nation's infrastructure 
needs.
    In California, leaders like Director Omishakin are at the 
forefront of this effort by recognizing that communities of 
color and underserved communities have experienced fewer 
benefits and a greater share of the negative impacts associated 
with our transportation systems, as well as by issuing a race 
and equity action plan and making tangible commitments, 
including creating a work force, at all levels, that is 
representative of the communities that it serves, meaningfully 
engaging communities most impacted by structural racism in the 
creation and implementation of the programs and projects that 
impact their daily lives, increasing pathways to opportunities 
for minority owned and disadvantaged business enterprises, and 
combating the climate crisis and the disproportionate impact on 
frontline and vulnerable communities.
    I look forward to working with my colleagues to amplify 
these commitments at the Federal level to create a more 
equitable transportation system for all Americans. Again, in 
prior hearings, we have talked about the physical impacts of 
too many infrastructure projects, particularly transportation 
projects on communities.
    Today, I want to focus on business opportunity. As we work 
to pass a bold package to invest in our Nation's 
infrastructure, we must ensure that such funding also helps 
businesses, especially small, minority owned, and women owned 
business that have been hardest hit by the COVID-19 pandemic to 
rebuild and to thrive. Current regulations require that 
agencies receiving Federal transportation funding use a portion 
of such funds to support disadvantaged business enterprises.
    Unfortunately, current regulations can unintentionally 
create incentives to keep small businesses small, rather than 
helping them mature into medium sized businesses or prime 
contractors. In response to these concerns, agencies like L.A. 
Metro have established innovative local programs to support 
small businesses with the tools to get certified and to grow. 
These tools include creating a medium business size standard 
and provide a pathway for small businesses to bid on and win 
contracts as prime contractors.
    As Congress seeks to overhaul our Nation's infrastructure, 
I believe that we can scale up these innovative policies to 
help firms that participate in disadvantaged business 
enterprise programs grow and prosper. That is why I am working 
on legislation to incorporate these tools into the requirements 
for Federal transportation programs and to provide startup 
capital that will help communities most impacted by the COVID-
19 pandemic.
    I understand that Caltrans supports efforts to raise the 
cap on the size of transportation sector businesses eligible 
for disadvantaged business enterprise program. Mr. Omishakin, 
can you discuss how reforms like raising the cap and scaling up 
innovative local programs are critical to addressing the 
effects of past and present discrimination and helping 
disadvantaged business enterprises grow?
    Mr. Omishakin. Thank you, Senator Padilla. Thanks a lot for 
your statement and your question there, and thank you for your 
tenured leadership for our State, and now as our U.S. Senator, 
as well. Thank you very much.
    Small businesses, we know are the life engine, the 
lifeblood, of the economy of this country. When we talk about 
recovering from the impacts of the pandemic, there is no doubt 
that a part of where we need to pay the most attention to is 
the small businesses that exist in all of our States across the 
country. Today, the cap on the DBE Program, the National DBE 
Program, Disadvantaged Business Enterprise Program, is roughly 
$26 million. I think it is $26.29 million.
    We believe, and I think in reference to your question, 
Senator, we believe that if that ceiling is increased, if you 
increase that ceiling from $26 million, roughly, to possibly 
$39 million, which is not an arbitrary number, it is the number 
that the Small Business Administration uses, the SBA, if you 
brought that ceiling up from $26 million to $39 million to 
allow businesses to stay in longer in the DBA Program, we 
believe those businesses will become more competitive and have 
a longer opportunity to stay within the program and continue to 
do good work and flourish.
    Today, in California, I will tell you that our program is 
roughly--our entire small business program is $1.1 billion 
annually. Our plan is to try to grow that in this next year to 
roughly $1.2 billion, so at least another $100 million coming 
into small business in our department here at Caltrans.
    We think this is an important step, and thank you for your 
leadership again, Senator, as you push for something like this.
    Senator Padilla. Thank you very much.
    Senator Cardin. Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman, again.
    Director Panos, thanks again for being here and 
representing the rural perspective on a topic that is usually 
associated, obviously, with larger, urban areas.
    Your testimony highlighted rural disadvantaged communities 
are often simply looking to get connected in the first place, 
as opposed to the many urban examples that are looking to 
reconnect. I am going to ask you first of all to explain 
briefly that distinction, why it is important in rural areas 
like North Dakota.
    But at the same time, I am going to ask you to comment 
specifically on the Reconnecting Communities Act as is being 
discussed today as a potential solution to some of these 
inequities. Based on the parameters within the bill that I know 
you have read, and from your time in North Dakota and Wyoming, 
can you think of any examples of projects that would have 
qualified for the construction grants as designed in this bill?
    Mr. Panos. Chairman Cardin, Senator Cramer, thank you so 
much for the question, and by the way, for this opportunity.
    In States like North Dakota, the connection to school and 
health care or a job is unlikely to be traversed by a short bus 
ride or walking. What many in metro areas would call long 
distances are frequently involved in day to day travel here in 
rural States.
    Improved and safer roads can mean a connection to a job or 
other essentials in a more reasonable, or at least a less 
unreasonable timeframe. Improved roads help farmers get our 
crops to the elevator, the grain elevators, more efficiently 
and safely.
    To answer the second part of your question, based on my 
reading of the Reconnecting Communities Act, I can't recall any 
projects in either Wyoming or North Dakota that would qualify 
for it in its current form, although applicability may be 
unlikely. A close review of the specific facts, I think, will 
be appropriate at a time when the grant program is put 
together.
    I would say that it is basically, as currently written, and 
some of our concerns are not geared to address rural 
circumstances, but more urban circumstances. I think we pointed 
out both in our written testimony and oral testimony ways that 
we can improve it so that we can take full advantage across the 
country in all States for this important, important work.
    So I think it is a really significant point to say that, 
and to not lose this point that poor planning decisions have 
led to adverse circumstances for specific communities, and that 
includes our rural communities and rural States. For us, it is 
about reconnecting these communities, and in some cases, 
connecting them so that they can participate in a normal, daily 
life in a normal, daily economy. It is particularly true when 
we talk about the length between transportation and our 
agricultural economy, our energy economy, and our tourism 
economy here in North Dakota.
    I hope that answers the question.
    Senator Cramer. Yes, it is very helpful. I might have 
droned on a little bit, both you, Director Panos and Omishakin, 
since you both have experience in very different States, but 
similar experiences.
    One of you, and maybe it was you, Bill, who testified to 
what the formula would look like if we applied the $15 billion 
to the formula. So, if Congress distributed the $15 billion via 
the existing formula programs, it would equate to about $95 
million for North Dakota and $1.4 billion for California over 5 
years. That is if we were going to just do it for the formula.
    So, for planning a budgetary certainty, would you prefer, 
and I would ask Director Omishakin first and then Director 
Panos, would you prefer guaranteed an increased funding, or 
would you rather gamble with the application process for a DOT 
grant? No spin there, sir. No.
    [Laughter.]
    Mr. Omishakin. Senator Cramer, it sounds like you used the 
word gamble. So, for us, the tradition for State DOTs has long 
been the use of the formula program. It is a part of our 
history to understand, just like you said, Senator, in this 
particular case, we would get roughly $1.4 billion, $1.5 
billion. But we don't mind taking advantage of a competitive 
grant program.
    We have been successful in the past in programs like the 
TIGER Program or INFRA Program, the various programs that have 
come out of USDOT; the State of California has been very 
competitive in those programs to be able to still bring money 
into the State, so we will be prepared either way, whether it 
be a formula type of program, where we would be guaranteed over 
a billion dollars, or a grant program. We believe, in 
California, we will be competitive either way. Thank you for 
that, Senator Cramer.
    Senator Cramer. As my time has run out, maybe Bill, why 
don't I restate the question a little different. How has North 
Dakota fared under the INFRA Grant Program that was part of the 
FAST Act?
    Mr. Panos. We have never received an INFRA Grant. We are 
one of the very few States that has not, and so I think that we 
definitely prefer badly needed formula funding in rural States 
across the country due to our population size and our 
participation in this amazing interstate highway system that we 
have in our country, and so we think that States can deliberate 
more quickly than a discretionary grant program, and it can be 
moved for a variety of needs throughout the country that relate 
to the topic of today's hearing, which is an important topic.
    Senator Cramer. Thank you.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman. I agree with 
much that has been said this morning about the historic 
underinvestment in communities of color and low income areas 
across the United States, both urban and rural. Step one is 
recognizing transportation inequity. Step two is investing in 
infrastructure that helps bring communities together, rather 
than keeping them apart.
    So it is important that we are engaging on that first step 
today, and I thank the Chairman for calling this hearing. I 
hope the Committee's surface transportation bill does reflect 
today's discussions.
    Director Omishakin, I want to discuss another area of 
historic underinvestment: Accessibility for individuals with 
disabilities. As you know, much of our transportation 
infrastructure built before the enactment of the Americans with 
Disabilities Act of 1990 is still in operation and still 
inaccessible to individuals with physical, sensory, 
intellectual, and developmental disabilities. Do you agree with 
me that overcoming accessibility inequities requires targeted 
investment and commitment by transportation officials to 
address these challenges, sooner rather than later?
    Director Omishakin.
    Mr. Omishakin. Senator Duckworth, thank you for the 
question, and thank you for your leadership and championing 
issues like this since you have been in office. As you 
mentioned, we are celebrating just over 30 years of the passing 
of the ADA. One of the main implementers of the ADA has been 
both city and State departments of transportation.
    There is no doubt that, in California, we are committed to 
this, and we believe that targeted investment should continue. 
Our Governor, Governor Newsom, has set his umbrella for his 
leadership for the State as a California for all, meaning all 
people, regardless of ethnicity, regardless of ability, 
regardless of income.
    So, across different spectrums in the work that we do in 
the State government in California, we absolutely believe that 
this continues to need to be a focus. ADA needs to be a focus, 
and targeted investment is a big part of how we will continue 
to see the difference and change that we want to see.
    Senator Duckworth. Thank you.
    Does anybody on the panel disagree with me that addressing 
infrastructure accessibility should be a priority?
    OK. Thank you.
    Next week, I plan to introduce my All Stations 
Accessibility Program Act to help target accessibility 
opportunities across legacy transit and commuter rail systems.
    I will give you an example. In Chicago, our El and our CTA 
is very proud that they plan on being completely wheelchair 
accessible in 20 years, and when they told me this, and they 
were very proud, and I applaud their efforts.
    What I said to them was so, a half-century, 50 years, a 
half-century after the ADA is when persons with disabilities 
will finally have full access, and that simply is not enough, 
which is why I wrote the All Stations Accessibility Program 
Act. In areas across the Nation, significant transportation 
accessibility challenges remain. This is unacceptable, and we 
must do more to address this problem.
    Director Omishakin, departments of transportation often 
view project planning, financing, and implementation in modal 
silos that can't inhibit delivery and limit connectivity across 
a system. Would you agree with me that Congress should be 
looking at ways to remove outdated, modal barriers in order to 
expedite project delivery and to save taxpayer dollars?
    Mr. Omishakin. Thank you, Senator Duckworth. I believe so. 
I think, truly, the way that we are going to create a robust 
transportation system and enhance where we are today is to 
absolutely connect all the modes as much as we possibly can. 
The current leadership at the USDOT, I believe, has made 
statements around this.
    Secretary Buttigieg, I believe, has made comments around 
being a One DOT, essentially meaning that all the different 
branches, whether it be FTA, FHW, FRA, all need to be thinking 
about how to work together to achieve the goals for a great 
transportation system.
    We are definitely doing that in California, as I lead this 
department. This is something that we talk about every single 
day, is how we can become more multimodal and more connected, 
and I think the same thing applies for the rest of us in the 
Nation, as well.
    Senator Duckworth. Thank you. I am glad to hear you say 
that.
    Next week, I am re-introducing my bipartisan TIFIA for 
Airports Act with Senator Cornyn, so it is bipartisan, to 
extend the underused TIFIA loan program to major airport 
projects, like those at O'Hare, LAX, Dallas/Fort Worth.
    Thank you all for being on the panel today.
    I yield back; I am out of time.
    Thank you, Chairman.
    Senator Cardin. Thank you, Senator Duckworth.
    Senator Lummis.
    Senator Lummis. Thank you, Mr. Chairman and Ranking Member, 
and I want to say hello to Bill Panos, one of our witnesses, 
who is with the great State of North Dakota now, and formerly 
the great State of Wyoming, so. Wonderful to have you on this 
panel.
    Bill, I have a question for you. Could you talk just a 
little more about why formula funding is so important to rural 
States like ours?
    Mr. Panos. Senator Lummis, and Chairman Cardin; Senator 
Lummis, it is great to see you in this format, and thank you 
for the question.
    Formula funding is important to all States, and certainly 
important to rural States like North Dakota and Wyoming for a 
number of different reasons. It can be used in more communities 
for more kinds of investment. It can be--including projects 
that improve or add capacity.
    Plus, you can be confident that you have formula funds. We 
can plan longer periods of time in our States with the USDOT 
for those investments and with our private sector community, as 
well.
    Our experience in North Dakota, as indicated in my previous 
response, is that you can never truly count on obtaining funds 
from a competitive grant program, but you certainly can from 
the formula program, which I think it was designed in its 
inception.
    I would also suggest that we can use formula funds for a 
variety of different programs. I know that the Chairman 
mentioned in his opening comments the TAP Program, which we 
have taken advantage of--thank you, Chairman--we have taken 
advantage of throughout our State, and many rural States have, 
to improve our cities and walkability and connected systems and 
multimodal approaches to transportation in rural States.
    So, formula funds are helpful for a variety of different 
things, including multimodal, including bike and pedestrian 
safety, including increasing capacity, connecting communities, 
reconnecting communities. We use formula in cooperation with 
our tribal nations when we can and have expanded our use of 
that, for ADA Programs, et cetera. So I think that the formula 
offers choice and flexibility that we would not have with a 
discretionary focused program.
    Senator Lummis. Thank you. What kinds of equity issues are 
different for rural States versus urban areas, especially like 
our States of North Dakota and Wyoming, which incidentally, are 
the two States that lead the Nation in terms of per capita 
contributions to the highway fund?
    Mr. Panos. Chairman Cardin, Senator Lummis, our States are 
oftentimes looking to connect our communities, and connect them 
in a way which is sustainable and resilient. Although we don't 
have the kind of flooding that you see on coastlines or near 
oceans, like Houston and maybe in my native State of 
California, we do have flooding, and we have lots of flooding 
in North Dakota, and it is significant.
    I think that connecting these communities in a resilient 
way, so that they can access their community in flood season, 
that they can access their communities during severe storms, 
that kind of thing, is really very critical. A lot of it is 
just basic, connective roads and bridges in these communities 
and basic transportation.
    That is significantly different than the urban connections 
that a lot of the focus has been in the hearing today, not to 
say that either are more important or less important. It is all 
very important; it is just different.
    Of course, this Committee has been great at understanding 
the differences among the 50 States. Along with my colleagues 
in California, and colleagues around the country, we have been, 
I think, really focused on the differences across the country.
    Senator Lummis. Thank you so much, and again, it is so 
great to see you.
    My next question is for Mr. Polzin.
    Dr. Polzin, it is my understanding that the current formula 
programs have the guardrails in place already to solve the 
sorts of equity issues that are being discussed here today. Do 
you feel that the current formula programs can fully capture 
these issues in the planning phases?
    Mr. Polzin. I think they can, and I think they have, and 
they have increasingly over time. I think there has been a 
recognition of some of these issues. As folks have pointed out, 
in looking at examples across the country from Houston to 
Baltimore to New York, et cetera, communities are addressing 
and dealing with these issues already.
    I personally think that the best decisions are made when 
the decisionmakers are faced with the full spectrum of choices 
and the full spectrum of discretionary opportunities. Then they 
involve all of the stakeholders and make the best decisions, to 
the extent that we can strain or parameterize those decisions, 
just as we alluded to the fact that we have tended to do that 
at the Federal level with modal silos.
    I think that results in some sub-optimal decisionmaking, so 
yes, I am very comfortable with giving those resources to the 
folks that are in the best positions to discern the best 
decisions for their communities and for the stakeholders in 
those projects at the local, regional, and State levels.
    Senator Lummis. Thank you very much.
    Thanks, witnesses.
    Thank you, Mr. Chairman. I yield back.
    Senator Cardin. Thank you, Senator Lummis.
    We now go to the Chairman of the full Committee, Senator 
Carper, who is with us.
    Senator Carper. Thanks, Mr. Chairman, and my thanks to you 
and to our Ranking Member on our Subcommittee for holding, we 
always say this is an important hearing. Well, this is an 
important hearing, and it is one that both our Chair and I, and 
I think a number of others on this Committee, are especially 
interested in and mindful of.
    I want to thank Senator Cardin, Senator Padilla, and others 
who joined us, Chris Van Hollen on legislation that is being 
discussed here to some extent today. Thanks for having this 
hearing, Mr. Chairman and Ranking Member.
    Before I turn my first question to Mr. Omishakin and Ms. 
Davis, let me take a moment to explain why this discussion is 
of particular interest to me and some of the folks in my home 
State.
    As you know, colleagues, the development of our national 
highway system was meant to bring communities together and to 
connect neighborhoods to opportunity, and also to connect them 
to prosperity.
    Sadly, we know that too often, it hasn't turned out that 
way for a number of Americans. Communities of color and our 
rural communities, disadvantaged communities were oftentimes 
harmed by this infrastructure development. Pockets of the 
country were left behind, cut off from transportation access. 
Highways were built in ways that divided communities instead of 
bringing them together.
    The legislation that Senator Cardin, Senator Padilla, 
Senator Van Hollen, and I and others recently introduced is 
called the Reconnecting Communities Act. Our legislation seeks 
to correct some of the injustices that I have just mentioned.
    Our bill would connect and revitalize areas that have been 
harmed by the development of our national highway system, and I 
look forward--we look forward--to working with our colleagues 
on this legislation so that we might right some of the wrongs 
of our past and unite our communities for a brighter future 
together.
    With that, Mr. Chairman, Ranking Member, I would like to 
turn to some questions. Maybe by the end of the hearing, I can 
pronounce Mr. Omishakin without hesitating, and my last 
question will be asking him to tell us about where his name 
comes from. We have a lot of interesting names, but that is 
near the top of the list.
    Mr. Omishakin, here we go. We heard--this is also for I 
think, for Ms. Davis. We heard a lot about the challenges faced 
by both the urban and rural areas. The challenges for both 
environments are undeniable, and we have done a lot of work to 
provide set asides for rural areas in our current 
transportation programs, and that includes set asides and 
special rules for rural areas in the INFRA Grant Program, the 
Surface Transportation Block Grant Program, the Bill Grant 
Program used to be called TIGER, and the TIFIA Program.
    Here is my question. Why do you think that we have made 
special rules and set asides to meet the needs of rural areas, 
but have not taken the same approach for addressing the 
critical and unique needs of urban areas, and do you agree it 
would be appropriate to do so?
    That is a question for both of you. Thank you.
    Ms. Davis, Mr. Omishakin.
    Mr. Omishakin. Let me give a quick shot, Senator, but 
first, thank you for your leadership on the Committee. I have 
had a chance to see you at AASHTO, the annual meeting, a few 
times.
    Senator Carper. Oh, yes. How are you doing? Nice to see 
you.
    Mr. Omishakin. Very well, and I really appreciate it. By 
the way, the name is Nigerian, and you do an excellent job 
pronouncing it, actually.
    Senator Carper. Thank you. I practiced all last night, as 
well, just in case.
    [Laughter.]
    Mr. Omishakin. To your question, I believe we should, as a 
Nation, and I think we are doing that more and more, trying to 
get closer to the issues that we have in common, and not spend 
a lot of our energy talking about the things that make us so 
different, and the same applies for transportation.
    Director Panos from North Dakota just talked about, very 
eloquently, the challenges that rural States face as it relates 
to climate change issues, as well, the fact that they see 
flooding, and they sometimes may see a fire. Those are issues 
that plague a large urban State like California, urban in a 
sense of many urban areas.
    There are a lot of rural areas in California, as well. I 
think we can make targeted investments that help both urban 
States and urban cities, and rural States and rural cities, as 
well. I think those things that unify us, that connect us, is 
where a majority of our attention should be paid moving 
forward.
    I don't know if Ms. Davis got a chance, she may have had to 
run. I don't see her on anymore, but Senator, hopefully that 
answers your question just a little bit. I think targeted 
investment in both.
    Senator Carper. All right. Thank you, sir. Good to see you.
    I think it looks like--it says we have lost Ms. Davis. I 
hope we can find her again.
    My time has expired. Thanks, Mr. Chairman.
    Senator Cardin. Thank you, Senator Carper.
    I want to explore the issue of local input a little bit 
more. I think there is general consensus here that in the 
equity issues, we have challenges of communities that have been 
divided or isolated as a result of transportation programs. We 
have consensus that the formula funding program is critically 
important and that it gives predictable flow of Federal support 
for transportation programs in our States, that we want to get 
as much local input as we possibly can.
    So, let me just start with one of the examples that I 
mentioned in my opening statement, which was the Gwynns Falls 
Greenway in Baltimore. Mr. Olmsted, who originally designed 
Baltimore, connected all communities through greenspace, but 
over time, obviously, that got built over by housing and by 
roads, and communities got isolated.
    When I was a member of the House of Representatives, I 
sought to get Federal support to reconnect the communities 
along the Gwynns Falls, that are mostly minority communities 
and isolated communities through a pedestrian bike path, but it 
was a hard time to do it through the formula funding.
    At that time, we had congressional earmarks, and I was able 
to use an earmark in order to get the communities connected. It 
was hailed as one of the major equity issues in our community 
of reconnecting communities.
    As a result of that experience, I worked with then our 
former colleague, Senator Cochran, to develop the 
Transportation Alternative Programs, that have been mentioned 
here, to give local communities more input on how moneys can be 
spent in order to deal with equity issues in the community. I 
think most now recognize that as a valuable program. I have 
heard several of the witnesses talk about the TAP Program, and 
I appreciate that.
    But one of the challenges is that these programs are very 
much controlled by the States, even though they are for the 
local communities. The question is, how much more can we give 
control to local communities in order to deal with the equity 
issues, such as programs like the TAP Program?
    I am sorry Ms. Davis is no longer on the call, because she 
could give us a perspective from Houston and Nashville where 
she had responsibility.
    I would appreciate any of our panelists who are willing to 
tell us how we can improve local input in regard to funds that 
go through the State formulas to deal with equity issues.
    Mr. Polzin. Let me comment briefly on that, if I may.
    It is important when you think of addressing local 
priorities and local issues that you really look at the full 
spectrum of resources that might be available to address those, 
and those can include local and regional resources, as well as 
State and potentially Federal resources.
    There is certainly a constituency that says Federal funding 
is so modest that it needs to be focused on things that are of 
critical interest at the national level, and that State and/or 
local resources should be targeted toward more local priorities 
and initiatives that might vary fairly dramatically across the 
country.
    Now, having said that, and recognizing the importance of 
Federal dollars, even at the local level, there are other 
opportunities, for example, through some of the discretionary 
programs to leverage Federal resources to accomplish those 
things, like INFRA and TIGER type programs as well. There are 
certainly opportunities through reauthorizations that identify 
the critical priorities that will help guide the overall 
programs as well, so there are a number of opportunities to do 
those.
    Oftentimes, people naturally look for somebody else to pay 
for their priorities, but we need to, again, at the local 
level, look at the full spectrum of opportunities, including 
local resources. And you might note that more than half of 
States have increased their funding for transportation over the 
past few years. Numerous areas have been successful with 
referendums, and they are at the discretion to direct those 
resources to local priorities.
    Senator Cardin. Mr. Panos, let me direct this to you. You 
have been very effective in saying the States, the formula 
programs, are very important. They determine priorities.
    How can we get greater local input in regard, particularly 
to the TAP Program, so that local communities--and you 
mentioned this during your testimony--have more input as to how 
the transportation decisions are made in your State?
    Mr. Panos. Chairman Cardin, thank you for the question.
    I think that even through the formula, the emphasis on 
expanding local engagement would be helpful, not only in larger 
States, but smaller States like North Dakota. That is to say, 
we have great programs now through our incredible partners as 
the USDOT, through our STIP Planning Program, which is our 
State Transportation Improvement Plan, through a variety of 
other plans on deploying the formula funds. We have got a good 
start.
    The interesting part of the question is that there is a 
huge difference between local government, let's say in a larger 
State than in a smaller State. Here, some of our largest cities 
are 60,000 people. That is it, and they go down from there. So, 
those we are engaged with on a regular basis.
    In fact, we have three MPOs in North Dakota, which is not 
common in northern Plain States, but very common in some of our 
larger States. The rest of the communities are so small as to 
require full engagement by the State DOT with them.
    We have another classification of local government called 
townships here in North Dakota, which are extremely small, and 
under 100 people in some cases.
    In fact, our legislature this year had passed some 
regulations and funding to allow the State DOT to work better 
with them. This also, I would mention, includes our tribal 
nations. We have great partnerships and agreements with our 
tribal nations throughout our State. These oftentimes 
underserved communities need more help from the State.
    So I think we are positioned, State DOTS are positioned, in 
rural States to engage even more through the formula funding 
with our local communities in moving these programs forward. I 
hope that helps a little bit with the answer to your question.
    Senator Cardin. Thank you. Thank you very much.
    We will go now to Senator Kelly.
    Senator Kelly. Thank you, Mr. Chairman.
    I would like to address this first question to Mr. Panos, 
and I would like to discuss the condition of roads on tribal 
lands.
    Like North Dakota, Arizona is home to large swaths of 
tribal lands that contain thousands of miles of roads 
administered by the Bureau of Indian Affairs, and also 
administered by tribal governments.
    Nearly two-thirds of these roads are unpaved dirt or gravel 
roads, and frankly, many of them are unsafe. School buses 
transporting kids need constant repairs at a much higher rate 
than school buses that travel on paved roads. The CDC estimates 
that Native Americans using these roads suffer crashes and 
pedestrian collisions up to three times higher than non-
Natives.
    Mr. Panos, how would you describe the road system on tribal 
lands and their impact on the daily lives of Native Americans?
    Mr. Panos. Mr. Chairman, Senator Kelly, thank you. Thank 
you so much for your question. As you know, like Arizona, the 
Northern Plains States have numerous areas of tribal nations in 
all of the five States that my written testimony was 
coordinated with, Montana, North Dakota, South Dakota, Wyoming, 
and Idaho, have significant areas, like many of the States in 
the West, where there are tribal nations.
    We, as I described earlier, work extensively with them and 
are seeking even more coordinated support for them with BIA, 
with authorities given to us by the State, with authorities 
given to us by the USDOT, through the formula, with authorities 
given to us through BIA, to work with them more and more.
    On many of these tribal nation areas, the little things 
matter. If we can bring gravel in to help re-gravel a road, or 
we can improve with a stop sign or other kinds of things, they 
make a world of difference to these areas and improve safety 
significantly, so a little bit of money goes a long way.
    Again, I would focus back on the formula. Creating more 
authorities within the formula to allow us to do these kinds of 
things that are necessary with local government, with tribal 
nations, I think would help and provide that kind of support 
across our country.
    So, I hope that answers your question, and that is been my 
experience here in North Dakota and Wyoming, and I am sure it 
is the experience in Arizona, as well.
    I must say one more thing. The DOTs are doing a great job 
at reaching out and engaging the BIA, engaging tribal nations, 
every single day on public transit, on roads, on bridges, on 
resiliency, those kinds of things, but more can be done.
    Senator Kelly. As I have spent time on the Navajo Nation, a 
number of times, when I visited, this issue has come up. It 
comes up frequently, and it affects not only the condition, 
there are other effects here. As an example I would give, it 
affects the ability for Native schools to get teachers when you 
have to travel a long distance on a dirt road. It is not a 
practical thing or a desirable thing for teachers that are 
commuting to tribal schools.
    So, Mr. Panos, would you agree that funding high priority 
travel projects has benefits for non-Natives, as well?
    Mr. Panos. Senator Kelly, Chairman Cardin, yes. I am glad 
you brought up the example of schools. For about 5 years, I was 
the school construction executive for the State of Washington 
and built about 500 schools a year for about 5 years there, K-
12 schools, throughout the State, including all the tribal 
nation schools. Based on that experience, I would say yes to 
your question.
    Senator Kelly. Thank you.
    I yield back.
    Senator Cardin. Thank you, Senator Kelly.
    Senator Whitehouse. We understand Senator Whitehouse had to 
get off the video line.
    Senator Cramer, anything further?
    Senator Cramer. I don't think so, Mr. Chairman, other than 
thank you for this, and thanks to all of the witnesses. They 
have really been excellent, and I appreciate it. I think it is 
very helpful.
    Senator Cardin. Well, I concur with Senator Cramer's 
comments about our witnesses. I think this hearing has been 
extremely helpful. I am certain that there is going to be some 
follow up information that you all can help us with as we start 
to craft the legislation.
    I know that Chairman Carper and Ranking Member Capito are 
in open and active negotiations, where Senator Cramer and I are 
engaged in that also. I think your testimony today has really 
helped us in regard to this.
    I understand that Senator Sullivan may be en route. With 
respect to him, I will hold the hearing open for a few minutes, 
if you all could be a little bit patient.
    Perhaps I will ask one additional question at this point, 
and we will see whether Senator Sullivan arrives.
    In regard to the safety issues, we talked a little bit 
about that, but we do know that the numbers of pedestrian and 
bicycle accidents have increased pretty dramatically. We know 
that there is more vulnerability in an already vulnerable 
community to these types of safety issues.
    Is there anything specific that we can do in a 
reauthorization bill to help deal with pedestrian and bike 
safety that doesn't infringe upon the basic structure of the 
program or formula funding that would be helpful as you deal 
with these issues?
    Mr. Omishakin, I will start with you this time.
    Mr. Omishakin. Thank you, Chairman, for that question. 
Hopefully you can still hear me well.
    Senator Cardin. We can.
    Mr. Omishakin. OK, good. So, this issue, in particular, is 
probably one of the most important that is plaguing our sector 
today. I can't state more clearly how important this issue is. 
As a Nation, today, we are losing nearly 37,000 people using 
our transportation system.
    In California, we represent 10 percent of those fatality 
numbers, roughly 3,600 people, 3,700 people die on the 
transportation system every single year. That is 10 a day in 
our State, 10 a day. Nearly 3 of those 10, nearly 3 of them, 
are people who were walking and biking and trying to get access 
to transit.
    We believe that additional funding for safety, not just 
NHTSA, NHTSA is an important part of this because of the 
behavioral part of it, but also at DOT and at Federal Highways. 
Additional investment there will be big.
    From a policy standpoint, one of the things that we have 
been talking about more and more is a safe systems approach to 
addressing the safety challenges that we face on our 
transportation system.
    So not just thinking about one particular part of the 
challenge, but thinking about every single segment of the 
transportation system and how it fits in together to try to 
address the issues that are coming up.
    So, additional funding, no doubt, making some adjustments 
from a policy standpoint to be more supportive of safety, and 
keeping this issue absolutely on the front burner.
    I believe very much in everything that we just discussed on 
equity, and if you look at the equity implications of this as 
well, the people in minority communities are taking a heavier 
hit here, as well. So, this is a very important issue, and I 
really appreciate you, Senator, Chairman, for raising this 
question about what we can do more in the safety space.
    Senator Cardin. Thank you for that reply.
    As we look at the reauthorization bill, we might be asking 
for specific guidance as to how we can, if we direct funds, how 
is the most flexible way to allow you to deal with the local 
challenges that you have, but still focus on the reality that 
you need to reduce the vulnerability of pedestrians and 
bicyclists for injury. It is a huge problem in my State of 
Maryland.
    I think in every State, we have seen escalating numbers of 
pedestrian and bicycle accidents, so thank you for that input. 
We will be back to you as to how, perhaps, we can be helpful in 
the reauthorization bill.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    One issue, and I am just going to put this up there for all 
the witnesses, is the issue when there is a discussion on 
racial disparity in infrastructure, one thing that happens too 
often in my State is that you have certain groups, outside 
groups, some of the more extreme environmental groups, that 
want to shut down economic opportunity in places like Alaska. 
No roads, no resource development, no opportunity to access 
Federal lands. That is kind of a common theme.
    But the groups that that impacts, at least in Alaska, are 
oftentimes the indigenous communities. So, there is a big push, 
for example, right now, the Biden administration, a big push to 
delay any resource development projects in my State. That 
really impacts the indigenous populations.
    That element of racial disparity on infrastructure, in my 
view, at least in my State, often gets overlooked. I have been 
raising this with the Administration, and saying if we are 
going to address some of these transportation and 
infrastructure challenges from an equity standpoint, don't 
forget the people whose economic livelihoods get shut down when 
certain outside groups, from my State's perspective, come in 
and say, no, we don't want any roads in Alaska. We don't want 
any access to resources. We don't want any oil and gas 
development.
    The people that are often hurt are the people that the 
whole point of racial equity is supposedly meant to serve, so I 
would like a comment from our witnesses on that, because I 
think sometimes these issues can be viewed in an urban-rural 
perspective.
    But in my State, they are often very much issues that some 
of the more extreme environmental groups try to impose on 
Alaskans have the biggest and most negative impact on the 
indigenous populations, and has a real negative impact there.
    I would welcome a comment or suggestion from any of the 
witnesses on that issue, because it doesn't come up enough, and 
at least in my State, it seems to be forgotten.
    Mr. Polzin. I will be glad to make a brief comment with 
respect to that.
    The issue, historically, mobility has been perceived as a 
contributor to quality of life and economic opportunity. It is 
access to jobs, worship, health care, et cetera. A lot of our 
investment in transportation has been to stimulate that, to 
improve the economic opportunity and quality of life.
    To the extent that initiatives, whatever they are, be it 
environmental motives, energy motives, or mitigating 
externalities of transportation, to the extent that they offset 
some of the mobility opportunities, they will have other 
consequences, including consequences on the economy and quality 
of life of folks. So I think it is very important in that 
context that the full set of issues and factors are really at 
the table.
    Addressing the safety issue before, there is another 
classic example of that. If we don't provide adequate 
transportation capacity in our premium systems, and that demand 
spills over onto local streets, it increases the chances of 
safety risk quite dramatically. So we need to recognize those 
tradeoffs and deal with them and address those in our 
decisionmaking, because mobility does provide economic 
opportunity.
    Thank you.
    Senator Sullivan. Great. Thank you.
    Anyone else what to comment on that?
    I will just give you another example. Again, Alaska is 
quite unique, but we have over 200 communities, 200 that are 
not connected by roads. Yet, when you try to build a road 
anywhere in my State, you will get 20 lower 48 environmental 
groups to stop the building of a road. It is really frustrating 
for us in Alaska.
    Any other thoughts on these issues of access in communities 
of color? I mean, these are the indigenous people of my State, 
which is a great group of Americans who often get left out in 
some of these discussions.
    Mr. Omishakin. Senator, I will briefly say--Toks Omishakin 
from California--in our State, we have the largest tribal 
nation population in the country. There are more than, I think 
it is 109 federally recognized tribal governments in 
California. That is nearly a million people with that 
background in our State.
    I think what we try to focus on, and what we are going to 
try to focus on moving forward when we talk about equity is 
truly listening to those communities, those nations, those 
governments, to see what their needs are.
    It is true that sometimes building a road will have, just 
like we have talked about very well this morning already, that 
sometimes building a road can have significant negative impacts 
on a community that we sometimes overlook. But if a community 
truly needs a road, and they need that access for their 
livelihood and for their upward mobility moving forward, I 
think it is our responsibility as a DOT, as a State department 
of transportation, or a city department of transportation, to 
engage them and listen to them and figure out how to create 
that better access for them, if that is truly what's needed.
    We need to be careful, nonetheless, and use the 
environmental process that we have, NEPA, use those existing 
processes to make sure that if we are building it, it is not 
going to mean increased challenges from a climate standpoint, 
from an environmental standpoint, from a public health 
standpoint.
    We have to keep those things on the front burner, as well, 
but no doubt, we have to listen to communities and let that 
guide our decisionmaking as we make transportation investments 
moving forward.
    Senator Sullivan. Great, thank you.
    Thank you very much, Mr. Chairman.
    Senator Cardin. Thank you, Senator Sullivan.
    Let me again join with Senator Cramer in thanking our 
witnesses. I think this has been a very helpful hearing to the 
mission of our Subcommittee and full Committee, and with that, 
the Subcommittee will stand adjourned.
    Again, thanks to our witnesses.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
                                 <all>
</pre></body></html>
